NATIONAL CREDIT UNION ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL



       SEMIANNUAL REPORT
               TO
          THE CONGRESS
          October 1, 2009 – March 31, 2010
                              TABLE OF CONTENTS


Inspector General’s Message                                     i

NCUA and Office of Inspector General Mission Statements         1

Introduction                                                    2

NCUA Organizational Chart                                       3

NCUA Highlights                                                 5

Federally Insured Credit Union Highlights                       8
Legislative Highlights                                          9
Office of the Inspector General                                11
     Audit Activity                                            12
     Investigative Activity                                    17
     Legislative and Regulatory Reviews                        20
Table I – Reports With Questioned Costs                        22

Table II – Reports With Recommendations That Funds Be Put To
 Better Use                                                    23
Table III – Summary of OIG Activity                            24
Index of Reporting Requirements                                25
OIG Semiannual Report                                             October 1, 2009 – March 31, 2010




                            INSPECTOR GENERAL'S MESSAGE
                                 TO THE NCUA BOARD
                                 AND THE CONGRESS


     I am pleased to provide this semiannual report on the activities and
     accomplishments of the National Credit Union Administration (NCUA) Office of
     Inspector General (OIG) from October 1, 2009 to March 31, 2010. The audits,
     reviews, investigations, and other activities highlighted in this report illustrate the
     OIG’s ongoing commitment to promote efficiency, effectiveness, and integrity and
     help the NCUA successfully achieve its honorable goal of providing, through
     regulation and supervision, a safe and sound credit union system which
     promotes confidence in the national system of cooperative credit.

     We continue to commit the bulk of the OIG’s resources to conducting Material
     Loss Reviews (MLRs). In the resulting MLR reports, we address why material
     losses to the National Credit Union Share Insurance Fund occurred, analyzing
     the respective roles of the credit union and the agency’s supervision. As we
     conduct and report on the MLRs, we are accumulating information that will allow
     us to formulate overarching recommendations to NCUA. We intend that these
     recommendations will provide the agency, in its supervisory capacity, with an
     opportunity to learn from the past and create the potential for increased
     accountability in the future.

     During this reporting period we also issued a comprehensive report on the
     NCUA’s information security program in accordance with the Federal Information
     Security Management Act of 2002 (FISMA). FISMA provides a comprehensive
     framework for ensuring the effectiveness of information security controls over
     information resources that support federal operations and assets. Consistent
     with FISMA’s requirements, we performed an annual independent evaluation of
     the NCUA’s information security program and practices. In the FISMA report, we
     highlighted steps that the agency could take to improve the security of its
     information resources.




                                                i
OIG Semiannual Report                                         October 1, 2009 – March 31, 2010




     On the investigative side, the OIG’s investigation into allegations that an
     examiner was submitting false time sheet and travel vouchers concluded, prior to
     the official reporting on the investigation, with the employee’s resignation.

     The OIG’s ability to conduct MLRs effectively, given the volume and complexity
     of the issues involved, would not be possible without the unstinting cooperation
     we receive from the NCUA Board and management. As we continue to identify
     and report on the significant issues that the MLRs bring to light, we appreciate
     greatly the cooperative and productive working relationship we share with the
     agency.




                                         William A. DeSarno
                                         Inspector General




                                            ii
OIG Semiannual Report                                        October 1, 2009 – March 31, 2010




                                THE NCUA MISSION

 NCUA’s charge is to facilitate the availability of credit union services to all eligible
 consumers, especially those of modest means, through a regulatory environment that
 fosters a safe and sound credit union system.




                THE OFFICE OF INSPECTOR GENERAL MISSION

 The OIG promotes the economy, efficiency, and effectiveness of NCUA programs and
 operations, and detects and deters fraud, waste, and abuse, thereby supporting the
 NCUA’s mission of monitoring and promoting safe and sound federally insured credit
 unions.

 We accomplish our mission by conducting independent audits, investigations, and other
 activities, and by keeping the NCUA Board and the Congress fully and currently
 informed of our work.




                                            1
OIG Semiannual Report                                          October 1, 2009 – March 31, 2010




                                      INTRODUCTION

 The NCUA was established as an independent, federal regulatory agency on March 10,
 1970. The agency is responsible for chartering, examining, supervising, and insuring
 federal credit unions. It also insures state-chartered credit unions that have applied for
 insurance and have met National Credit Union Share Insurance requirements. The
 NCUA is funded by the credit unions it supervises and insures. As of December 31,
 2009, the NCUA was supervising and insuring 4,714 federal credit unions and insuring
 2,840 state-chartered credit unions, a total of 7,554 institutions. This represents a
 decline of 133 federal and 119 state-chartered institutions since December 31, 2008, for
 a total decline of 252 credit unions nationwide, primarily as a result of mergers.




                                   Federally Insured Credit Unions


                  9000
                  8000
                  7000      3173      3065     2959
                  6000                                  2840

                  5000
                  4000
                  3000
                            5189      5036     4847     4714
                  2000
                  1000
                        0                                               FISCUs
                            2006      2007     2008     2009
                                                                        FCUs




 The NCUA operates under the direction of a Board composed of three members. Board
 members are appointed by the President and confirmed by the Senate. They serve six-
 year terms. Terms are staggered, so that one term expires every two years. The Board
 is responsible for the management of the NCUA, including the NCUA Operating Fund,
 the Share Insurance Fund, the Central Liquidity Facility, and the Community
 Development Revolving Loan Fund.




                                               2
OIG Semiannual Report                                      October 1, 2009 – March 31, 2010




 The NCUA executes its program through its central office in Alexandria, Virginia and
 regional offices in Albany, New York; Alexandria, Virginia; Atlanta, Georgia; Austin,
 Texas; and Tempe, Arizona. The NCUA also operates the Asset Management and
 Assistance Center (AMAC) in Austin, Texas. Please refer to the NCUA organizational
 chart below.




                                          3
OIG Semiannual Report                                           October 1, 2009 – March 31, 2010




 The NCUA Board adopted its 2010 budget of $200,923,512 on November 19, 2009.
 The Full-Time Equivalent (FTE) staffing authorization for 2010 is 1,112 representing an
 increase of 74 FTEs from 2009.



                                        NCUA Budget Dollars
                          250
        Millions




                          200


                          150


                          100


                           50


                            0
                                 2006    2007        2008       2009          2010




                                        NCUA Authorized Staff
                          1050
        Employees (FTE)




                          1000



                           950



                           900
                                 2005    2006        2007       2008          2009




                                                 4
OIG Semiannual Report                                          October 1, 2009 – March 31, 2010




                                NCUA HIGHLIGHTS

 NCUA/NTEU Sign Collaborative Agreement

 NCUA Chairman Debbie Matz and National Treasury Employees Union (NTEU)
 President Colleen M. Kelley signed, on March 2, 2010, an agreement creating an
 NCUA/NTEU Partnership Council. The agreement was the first such concluded
 between a federal agency and NTEU in response to President Obama’s executive
 order on labor-management collaboration.

 The council, headed by Chairman Matz and President Kelley, includes six NTEU
 members and six management officials who will collaborate to enhance the work
 environment at NCUA. The partnership explicitly recognizes employees as NCUA’s
 primary resource, and encourages active participation to ensure the agency delivers
 the highest quality service to credit unions and the American public. The partnership
 will also encourage and enhance involvement of NCUA employees in the decision-
 making process regarding issues affecting the workplace.

 NCUA Chairman Matz Assures Treasury Secretary Geithner: NCUA Regulation of Business
 Lending is Strong

 In a letter dated February 24, 2010, to Treasury Secretary Timothy Geithner, Chairman
 Matz assured the Secretary that if a statutory increase in the member business lending
 (MBL) cap should become law, NCUA is prepared to enhance the regulation of MBL.
 Specifically, Chairman Matz stated that if legislative changes to increase or eliminate
 the current aggregate MBL cap were passed, NCUA would promptly revise its
 regulation to ensure that additional capacity in the credit union system would not result
 in unintended safety and soundness concerns. The letter also outlined ongoing NCUA
 efforts to monitor MBL activities, and specifically cited January guidance to credit
 unions that reiterated the importance of stringent risk management practices and
 appropriate staff expertise. This was the second correspondence from Chairman Matz
 to Secretary Geithner regarding MBLs during the reporting period.

 NCUA Board Member Hyland Urges Collaboration at CUNA’s 2010 Governmental Affairs
 Conference

 In remarks made to over 4,000 attendees at the Credit Union National Association’s
 (CUNA) 2010 Governmental Affairs Conference, held on February 23, 2010, in
 Washington D.C., Board Member Gigi Hyland reflected on other times when the credit
 union movement has been challenged, and encouraged attendees to build on a century
 of success to shape the future of credit unions. Board Member Hyland also indicated
 her strong support for a lifting of the MBL cap and her belief that prompt corrective
 action (PCA) must be accomplished soon. Hyland reported that she was in the process
 of finalizing a white paper on supplemental capital prepared by a working group within
 NCUA. Hyland subsequently, on April 12, 2010, presented the “Supplemental Capital
 White Paper” to Chairman Matz and Board Member Michael Fryzel.



                                             5
OIG Semiannual Report                                          October 1, 2009 – March 31, 2010




 NCUA Board Member Fryzel Commends Defense Credit Unions for Leadership and Service

 Speaking at the Defense Credit Union Council’s Defense Issues Meeting in
 Washington, D.C. on February 22, 2010, Board Member Fryzel commended defense
 credit union representatives for their leadership in the industry and their service to
 members, and stressed the need for continued commitment and involvement. Fryzel
 quoted the words of General Eisenhower in addressing the dedication of America’s
 military members and the defense credit unions that serve them: “History does not long
 entrust the care of freedom to the weak or timid.” Board Member Fryzel praised our
 service men and women, who “have never been weak or timid in their dedication to our
 country.” Likewise, he stated that their credit unions have been “strong in speaking for
 and protecting the rights and well deserved privileges of honest financial services for
 those dedicated people.”

 NCUA Intervenes in WesCorp Lawsuit

 On December 30, 2009, the NCUA, as Conservator of Western Corporate Federal
 Credit Union (WesCorp) filed papers in Superior Court in Los Angeles, California, to
 intervene as plaintiff in a lawsuit against several current and former employees and
 officials of WesCorp. NCUA maintains that it is the proper plaintiff and should be
 permitted to replace the current plaintiffs and determine whether and how to proceed
 with any action against WesCorp’s former Board members and employees.

 The civil action, brought by seven natural person credit unions that are members of
 WesCorp, alleges negligence and breach of fiduciary duties in connection with
 WesCorp’s substantial investments in residential mortgage backed securities and
 collateralized debt obligations.

 WesCorp has been operating under federal control since being placed into
 conservatorship by NCUA in March 2009. As Conservator, the NCUA operates the
 institution through its management team and is the successor to all the rights, titles,
 powers and privileges of the credit union and any of its members, account holders,
 officers or directors.

 Credit Unions Finish 2009 with Nearly 10 Percent Net Worth; Loan Growth, Delinquency
 Grow

 Credit unions finished 2009 with nearly 10 percent net worth, while loan demand and
 delinquencies showed weakness in the face of economic stress, according to
 December 2009 NCUA Call Report data. Membership in the nation’s 7,554 federally-
 insured credit unions increased to nearly 90 million, and shares grew at the robust rate
 of 10.5 percent. Recognizing that recent credit union growth is “impressive and
 encouraging,” Chairman Matz stated that “these positive developments are tempered
 by recognition of ongoing stresses.” In 2009, delinquent loans to total loans grew to 1.8
 percent. In response, NCUA has determined to increase examination staff and
 augment regulatory oversight to monitor and assist credit unions with persistent,
 adverse economic conditions.




                                             6
OIG Semiannual Report                                           October 1, 2009 – March 31, 2010




 Chairman Matz Calls for Consumer-Focused Capital Reform

 In a December 7, 2009, letter to House Financial Services Committee Chairman
 Barney Frank, Chairman Matz called for changes in the credit union capital regime that
 would enable credit unions to promote consumer savings while maintaining rigorous
 safety and soundness standards. In her letter, Matz noted a trend in the credit union
 industry where well-capitalized credit unions were discouraging consumer deposits
 because of a potentially negative impact on regulatorily established capital levels.

 Chairman Matz identified two legislative remedies for the unintentional disincentive to
 consumer savings:

     - A change in the “total assets” denominator of the net worth ratio that would allow
     qualifying credit unions to exclude those assets that have a zero risk (such as short-
     term U.S. Treasury securities), exposing the credit union to virtually no risk of loss.

     - Authorization for qualifying credit unions to issue alternative forms of capital to
     supplement their retained earnings.

 Chairman Matz stressed that the capital flexibility she was proposing was narrowly
 crafted, specific to the situation, and would help increase savings while maintaining
 strong and credible credit union net worth standards.

 Chairman Matz’s Testimony Details Industry Stress, Strong NCUA Oversight

 Testifying before the Senate Banking, Housing and Urban Affairs Subcommittee on
 Financial Institutions on October 14, 2009, Chairman Matz told subcommittee members
 that stress in the financial sector has translated into challenging times but she is
 confident that the credit union industry will weather the storm. Chairman Matz stated
 that in response to the harsh effects of the economic downturn, NCUA has enhanced
 its supervision, shortened the examination cycle, increased the number of examiners,
 and upgraded risk-management systems.

 Chairman Matz testified that, in 2008, corporate credit union exposure to mortgage-
 backed securities first created a liquidity shortage, then later capital impairments that
 affected the entire credit union system. She predicted that, given the tenuous real
 estate market, NCUA expects additional losses to materialize.




                                              7
OIG Semiannual Report                                            October 1, 2009 – March 31, 2010




             FEDERALLY INSURED CREDIT UNION HIGHLIGHTS

 Credit unions submit quarterly call reports (financial and operational data) to the NCUA.
 An NCUA staff assessment of the December 31, 2009, quarterly call reports submitted
 by all federally insured credit unions found that key financial indicators show concern.

 Key Financial Indicators Showing Concern

 Looking at the December 31, 2009 quarterly statistics for major balance sheet items and
 key ratios shows the following for the nation’s 7,554 federally insured credit unions:
 assets grew 9.1 percent; net worth to assets ratio decreased from 10.61 to 9.91 percent;
 the loan to share ratio decreased from 83.10 percent to 76.95 percent; the delinquency
 ratio increased from 1.38 to 1.82 percent; and credit union return on average assets
 increased from (.04) percent to .20 percent.

 Savings Shifting to Money Market Accounts

 Total share accounts increased 10.5 percent. Money market shares increased 23.5
 percent. Regular shares comprise 26.54 percent of total share accounts; share
 certificates comprise 30.00 percent; money market shares comprise 21.08 percent;
 share draft accounts comprise 11.31 percent; and all other share accounts comprise
 11.07 percent.

 Loans Increased Slightly

 Loan growth of 1.14 percent resulted in an increase in total loans by $6.4 billion. Total
 net loans of $564 billion comprise 64 percent of credit union assets. First mortgage real
 estate loans increased 4.4 percent. First mortgage real estate loans are the largest
 single asset category with $217.1 billion accounting for 37.93 percent of all loans. Other
 real estate loans of $92.4 billion account for 16.14 percent of all loans. Used car loans
 of $98.1 billion were 17.14 percent of all loans, while new car loans amounted to $75.2
 billion or 13.14 percent of total loans.     Credit card loans totaled $34.9 billion or 6.1
 percent of total loans and other loans totaled $54.7 billion for 9.56 percent of total loans.




                                              8
OIG Semiannual Report                                             October 1, 2009 – March 31, 2010




                             LEGISLATIVE HIGHLIGHTS

 Central Liquidity Facility, Community Development Fund Receive 2010
 Appropriation

 On December 14, 2009, Congress removed the borrowing cap on Central Liquidity
 Facility (CLF) borrowing for another fiscal year and increased the appropriation for the
 Community Development Revolving Loan Fund (CDRLF) as part of H.R. 3288, a broad
 2010 spending package.

 For the second year in a row, legislation was passed that would allow the CLF to lend
 up to approximately $43.8 billion in contingent liquidity to credit unions. That level of
 borrowing, based on capital held by the CLF and drawn from the U.S. Treasury, will be
 available until September 30, 2010. The same spending bill, which was finalized by the
 U.S. Senate in a rare Sunday session, raised the CDRLF appropriation by $250,000, to
 $1.25 million for FY2010. NCUA’s Office of Small Credit Union Initiatives uses these
 funds for both loans and grants to qualifying credit unions.

 House Approves Regulatory Reform Legislation

 In December, the House of Representatives passed H.R. 4173, “The Wall Street Reform
 and Consumer Protection Act.” The measure includes a number of provisions of interest
 to credit unions. As approved by the House, the bill would establish a Consumer
 Financial Protection Agency (CFPA), a new independent agency devoted solely to
 protecting consumers from unfair financial products and services. Credit unions with
 under $10 billion in assets would continue to be overseen directly by NCUA, while those
 over $10 billion would be subject to examination and enforcement by the CFPA.
 However, the CFPA would have the authority to delegate all examinations to NCUA.

 The bill also creates an interagency Financial Stability Council to monitor risk in the
 financial system. The NCUA Chairman would be a voting member of the Council. In a
 related provision, the bill establishes a dissolution fund to pay for the resolution of
 systematically significant failing firms. Institutions with under $50 billion in assets would
 be exempt from paying into the fund.

 The law would also amend the Federal Credit Union Act to raise the material loss review
 (MLR) threshold to $25 million (from $10 million) and 10% of a credit union’s total assets
 at the time the NCUA stepped in to provide assistance. Finally, the law would amend the
 Inspector General Act of 1978, as amended, most recently by the Inspector General
 Reform Act of 2008, to convert the current appointment status of the NCUA IG, along
 with four other federal IGs, to a Presidentially appointed, Senate approved position.




                                               9
OIG Semiannual Report                                          October 1, 2009 – March 31, 2010




 Senate Introduces Member Business Lending Legislation

 On December 21, 2009, a bipartisan group of senators introduced the Small Business
 Lending Enhancement Act of 2009 (S. 2919), which would amend the Federal Credit
 Union Act to increase the total permissible amount of MBLs by an insured credit union
 (excluding those made to nonprofit religious organizations) to a limit of 25% of the credit
 union’s total assets. The bill also increases from $50,000 to $250,000 the maximum total
 extensions of credit a borrower or associated member of an insured credit union may
 have before any extension of credit would be considered an MBL. The legislation would
 further require the NCUA Board to report semiannually to Congress on the status of
 member business lending by credit unions during the reporting period. Sens. Mark Udall
 (D-Colo.), Charles Schumer (D-NY), Joseph Lieberman (I-Conn.), Olympia Snowe (R-
 Maine), Barbara Boxer (D-Calif.), Susan Collins (R-Maine), and Kristen Gillibrand (D-NY)
 introduced the legislation. A similar bill, H.R. 3380, was introduced by Rep. Paul
 Kanjorski (D-Pa.) in the House on July 29, 2009.

 Senator Dodd Introduces Financial Reform Legislation

 On March 15, 2010, Senate Banking, Housing and Urban Affairs Committee Chairman
 Christopher J. Dodd introduced a far-reaching bill, the “Restoring American Financial
 Stability Act of 2009.” Among the many proposals in the 1,336-page bill are the following:

     •   The CFPA would be part of the Federal Reserve;
     •   Creation of a systemic risk council;
     •   Regulation of over-the-counter derivatives;
     •   The Federal Reserve would regulate bank holding companies with $50 million or
         more in assets, and “systemically important nonbank financial institutions;” and
     •   Many smaller banks that the Federal Reserve currently regulates would be
         overseen by the OCC or the FDIC, depending on the bank charter.

 The proposed bill contains several provisions identical to the House version, including the
 sections that would, respectively, increase the monetary threshold for conducting MLRs
 as well as elevate five Inspectors General, including the NCUA IG, to Presidentially-
 appointed, Senate-confirmed positions.




                                             10
OIG Semiannual Report                                        October 1, 2009 – March 31, 2010




                        OFFICE OF THE INSPECTOR GENERAL

 The Office of the Inspector General was established at the NCUA in 1989 under the
 authority of the Inspector General Act of 1978, as amended. The staff consists of the
 Inspector General, Deputy Inspector General, Counsel to the Inspector General, Director
 of Investigations, Auditor, two Senior Auditors, Senior Information Technology Auditor,
 and Office Manager.

 The Inspector General reports to, and is under the general supervision of, the NCUA
 Board. The Inspector General is responsible for:

         1. Conducting, supervising, and coordinating audits and investigations of all
            NCUA programs and operations;

         2. Reviewing policies and procedures to ensure efficient and economic
            operations as well as preventing and detecting fraud, waste, and abuse;

         3. Reviewing existing and proposed legislation and regulations to evaluate their
            impact on the economic and efficient administration of agency programs; and

         4. Keeping the NCUA Board and the Congress apprised of significant findings
            and recommendations.




                                                NCUA OIG
                                             ORGANIZATIONAL
                                                 CHART




                                            11
OIG Semiannual Report                                           October 1, 2009 – March 31, 2010




                                 AUDIT ACTIVITY

 Audit Reports Issued

 OIG-09-02 –October 16, 2009
 Independent Evaluation of NCUA’s Compliance with FISMA 2009

 The Office of Inspector General (OIG) for the National Credit Union Administration
 (NCUA) engaged Richard S. Carson and Associates, Inc (Carson Associates), to
 independently evaluate its information systems and security program and controls for
 compliance with the Federal Information Security Management Act (FISMA), Title III
 of the E-Government Act of 2002.

 Carson Associates evaluated NCUA’s security program through interviews,
 documentation reviews, technical configuration reviews, an after-hours walk-through,
 and sample testing. We evaluated NCUA against standards and requirements for
 federal government agencies such as those provided through FISMA, the
 Government Accountability Office’s Federal Information System Controls Audit
 Manual (FISCAM), National Institute of Standards and Technology (NIST) Special
 Publications (SPs), and Office of Management and Budget (OMB) memoranda.

 The NCUA has worked to further strengthen its information technology (IT) security
 program during Fiscal Year (FY) 2009. NCUA’s accomplishments during this period
 include:

     •   Installation of a change control management system for its IT systems;
     •   Improved employee enter/exit procedures;
     •   Enhanced policies and procedures;
     •   Improved contingency plan testing;
     •   Completed re-certification of a major certification & accreditation (C&A)
         package;
     •   Currently undergoing a re-certification of one major C&A package;
     •   Improved plan of action and milestones (POA&M) process; and
     •   Completed control testing for all six systems

 We identified several areas that NCUA officials need to address and could improve
 IT security controls. We presented these findings in detail to NCUA management
 and corrective action has already been taken or is planned.

 OIG-09-03 –October 23, 2009
 Material Loss Review of New London Security Federal Credit Union

 The NCUA OIG conducted a Material Loss Review of New London Security Federal
 Credit Union (New London). We reviewed New London to: (1) determine the
 cause(s) of New London’s failure and the resulting loss to the NCUSIF; and (2)




                                             12
OIG Semiannual Report                                          October 1, 2009 – March 31, 2010




 assess NCUA’s supervision of the credit union. To achieve these objectives, we
 analyzed NCUA examination and supervision reports and related correspondence;
 interviewed management and staff from NCUA Region I; and reviewed NCUA
 guides, policies and procedures, NCUA Call Reports, and NCUA Financial
 Performance Reports (FPRs).

 We determined suspected fraud was the direct cause of New London’s failure due to
 a misappropriation of credit union investment funds. NCUA discovered that
 approximately $12 million in investments did not exist and that investment brokerage
 statements appeared to be fabricated. New London’s investment account manager
 served on New London’s Board of Directors for 19 years. The account manager
 controlled substantially all of the investment activity and blank investment statements
 were discovered in the account manager’s office. The account manager also hand
 delivered the investment statements to the credit union.

 We also determined New London management failed to implement adequate internal
 controls over the credit union’s investment activity. Specifically, management
 allowed the account manager to handle all investment activity without adequate
 oversight. Beyond contracting with external auditors to perform annually required
 work, the credit union Supervisory Committee was inactive for more than four years.
 NCUA Documents of Resolution repeatedly recommended that the Supervisory
 Committee become more active or contract out quarterly reviews for such things as
 internal control reviews. Although the Board repeatedly promised to contract out
 quarterly reviews, this never occurred.

 In addition, New London management repeatedly failed to take timely corrective
 actions on NCUA Documents of Resolution. NCUA recommended that the credit
 union execute a safekeeping/custodial agreement with a third party independent of
 the account manager. According to NCUA examination documents, the New London
 board passed a resolution to have a safekeeping arrangement with its investment
 brokerage firm and the credit union’s attorney reviewed this agreement to ensure the
 credit union’s interests were protected. However, NCUA staff was unable to locate a
 written safekeeping agreement, which could have shown that the credit union’s
 interests were protected and, thereby, potentially mitigated the loss to the NCUSIF.

 Furthermore, although the external auditor purportedly obtained annual independent
 confirmations from the brokerage firm, the confirmations received were not sufficient
 to ensure the investments existed. Finally, we determined that NCUA examiners did
 not adequately evaluate the risk in the New London’s investment program.
 Investments accounted for over 90 percent of the credit union assets. While NCUA
 examiners noted the high concentration of investments and the lack of controls over
 investments--including the lack of a safekeeping agreement, they failed to elevate
 these repeated issues for stronger supervisory actions.




                                             13
OIG Semiannual Report                                          October 1, 2009 – March 31, 2010




 OIG-10-01 –March 17, 2010
 Material Loss Review of High Desert Federal Credit Union

 The NCUA OIG contracted with Moss Adams to conduct a Material Loss Review of
 High Desert Federal Credit Union. We reviewed High Desert to: (1) determine the
 cause(s) of failure and the resulting loss to the NCUSIF; and (2) assess NCUA’s
 supervision of the credit union. To achieve these objectives, we analyzed NCUA
 examination and supervision reports and related correspondence; interviewed
 management and staff from NCUA Regions I and V; and reviewed NCUA guides,
 policies and procedures, NCUA Call Reports, and NCUA Financial Performance
 Reports (FPRs).

 We determined HDFCU failed primarily due to a high concentration of real estate
 construction loans coupled with the dramatic decline in nationwide real estate values
 caused by the credit crisis. The Credit Union grew its construction lending exposure
 to over 60 percent in 2005, 2006, and 2007, making it particularly vulnerable to the
 market decline.

 In addition, the underwriting and monitoring of these loans did not meet NCUA
 guidelines, and included a significant number of loans based on stated income,
 insufficient equity, and infrequent site visits to construction properties.

 We determined NCUA examiners did not adequately evaluate the risk in the
 HDFCU’s real estate construction portfolio. As noted, real estate construction loans
 accounted for over 60 percent of the Credit Union's loan portfolio for three
 consecutive years. NCUA examiners noted the high concentration and the lack of
 proper underwriting and monitoring controls, including repeat violations of Part 723.3
 of the NCUA Rules and Regulations.

 They failed, however, to elevate these repeated issues for stronger supervisory
 actions. Consequently, examiners did not expand examination procedures when they
 should have done so, which could have mitigated the loss to the NCUSIF.

 We also determined NCUA examiners did not ensure that Credit Union management
 took corrective action on repetitive Document of Resolution (DOR) issues by
 elevating those issues to their superiors for stronger supervisory actions.
 Additionally, we found little evidence that NCUA officials and examiners monitored
 waivers granted to HDFCU in August 2003 for compliance, and the Credit Union did
 not establish a process to monitor compliance with the waiver either.

 Finally, the examiners in charge remained the same for more than eight years, with
 in charge responsibilities rotating between the same two examiners. These
 examiners became overly familiar with the Credit Union, management, staff,
 processes, and culture, which created a lack of objectivity in the evaluation of the
 risks impacting the Credit Union.




                                            14
OIG Semiannual Report                                             October 1, 2009 – March 31, 2010




 AUDITS IN PROGRESS


 NCUA Financial Statements 2008

 Our 2008 contracting audit firm, Deloitte & Touche LLP, is working to issue its opinion on
 the 2008 financial statements of the NCUA Operating Fund, National Credit Union Share
 Insurance Fund, the Central Liquidity Facility, and the Community Development
 Revolving Loan Fund. We expect to issue our report in June 2010.

 NCUA Financial Statements 2009

 Our current contracting audit firm, KPMG, is working on the 2009 financial statements of
 the NCUA Operating Fund, National Credit Union Share Insurance Fund, the Central
 Liquidity Facility, the Community Development Revolving Loan Fund and the Temporary
 Corporate Credit Union Stabilization Fund (TCCUSF).

 The NCUA Operating Fund was established as a revolving fund managed by the NCUA
 Board for the purpose of providing administration and service to the federal credit union
 system. The National Credit Union Share Insurance Fund was established as a
 revolving fund managed by the NCUA Board to insure member share deposits in all
 Federal credit unions and qualifying state credit unions. The CLF was established as a
 mixed ownership government corporation managed by the NCUA Board to improve
 general financial stability by meeting the liquidity needs of credit unions. And the
 Community Development Revolving Loan purpose is to stimulate economic activities in
 the communities served by low-income credit unions. This in turn will result in increased
 income, ownership and employment opportunities for low-wealth residents and other
 economic growth. The TCCUSF, established in 2009, allows NCUA to borrow money
 from the Treasury to pay for corporate credit union losses, and then pay back the
 Treasury over time with funds obtained from assessments on federally insured credit
 unions. We expect to issue our report in June 2010.

 Material Loss Reviews of Cal State 9, Center Valley, Eastern Florida Financial, Ensign,
 ClearStar, U.S. Central and WesCorp

 The FCU Act provides that a review is required when the NCUSIF incurs a material loss.
 For purposes of determining whether the NCUSIF has incurred a material loss with
 respect to an insured credit union such that the OIG must make a report, a loss is
 material if it exceeds the sum of $10,000,000, and an amount equal to 10 percent of the
 total assets of the credit union at the time at which the NCUA Board initiated assistance
 under section 208, or was appointed liquidating agent. In addition, the OIG may perform
 a material loss review on selected cases that caused a loss of less than $10,000,000 at
 the discretion of the Inspector General.

 The OIG was notified by NCUA that the losses incurred by these credit unions had
 exceeded the statutory requirements, triggering a material loss review by the OIG. The
 scope of these audits will include an analysis of the credit union’s transactions and




                                               15
OIG Semiannual Report                                          October 1, 2009 – March 31, 2010




 activities to determine the causes of failure and a review of the supervision of the credit
 union. The review will be performed in accordance with Government Auditing Standards
 for performance audits. Our objectives are to determine (1) the causes of the credit
 union’s failure and resulting material loss to the share insurance fund; and (2) assess
 the NCUA’s supervision of the institution, including implementation of the Prompt
 Corrective Action requirements of the FCU Act. We expect to issue our reports on Cal
 State 9 and Center Valley in April 2010; Eastern Florida Financial in May 2010 and on
 Ensign, ClearStar, U.S. Central and WesCorp in the fall of 2010.


 Significant Audit Recommendations on which Corrective Action Has Not Been
 Completed

 As of March 31, 2010, there were no significant audit recommendations on reports
 issued over six months ago that have not been either fully implemented or are in the
 process of implementation.




                                             16
OIG Semiannual Report                                          October 1, 2009 – March 31, 2010




                            INVESTIGATIVE ACTIVITY

 In accordance with professional standards and guidelines established by the Department
 of Justice, the OIG conducts investigations of criminal, civil, and administrative
 wrongdoing involving agency programs, operations and personnel. Our investigative
 program focuses on activities designed to promote accountability, effectiveness, and
 efficiency, as well as fighting fraud, waste, and abuse in agency programs and
 operations. In addition to our efforts to deter misconduct and promote integrity
 awareness among agency employees, we investigate referrals and direct reports of
 employee misconduct. Investigations may involve possible violations of regulations
 regarding employee responsibilities and conduct, Federal criminal law, and other
 statutes and regulations pertaining to the activities of NCUA employees.

 Moreover, we receive complaints from credit union members and officials that involve
 NCUA employee program responsibilities. We examine these complaints to determine
 whether there is any indication of NCUA employee wrongdoing or misconduct. If not, we
 refer the complaint to the appropriate regional office for response, or close the matter if
 contact with the regional office indicates that the complaint has already been
 appropriately handled.

 OIG HOTLINE CONTACTS

 The OIG maintains a toll free hotline to enable employees and citizens to call with
 information about suspected waste, fraud, abuse or mismanagement involving agency
 programs or operations. We also receive complaints through an off-site post office box,
 from electronic mail, and facsimile messages. All information received from any of these
 sources is referred to as a hotline contact. The OIG hotline program is handled by our
 Office Manager, under the direction of our Director of Investigations. The majority of
 hotline contacts are from consumers seeking help with a problem with a credit union.
 These contacts are referred to the appropriate NCUA regional offices for assistance.
 During this reporting period, we referred 98 consumer complaints to regional offices. We
 referred 7 allegations of potential fraud at credit unions to the NCUA Office of General
 Counsel.




                                             17
OIG Semiannual Report                                          October 1, 2009 – March 31, 2010




 INVESTIGATIONS


 Time and Attendance/Travel Voucher Fraud

 During the reporting period, the OIG investigated an allegation that an employee had
 committed time and attendance as well as travel voucher fraud.

 The OIG’s investigation substantiated the allegations that the employee was falsifying
 time reports by reporting time worked in credit unions when she was not actually present
 at the credit union. She also claimed the corresponding mileage for purported travel to
 and from the credit unions on her travel and expense reports. After the OIG interviewed
 the employee, she resigned. As a result, the OIG closed the investigation prior to the
 issuance of a final report of investigation.

 Misconduct/Unethical Behavior

 During this reporting period, the OIG closed its review of an allegation that two NCUA
 attorneys may have engaged in misconduct and/or unethical conduct. While our review
 found that the actions cited in the allegation in fact occurred, they did not constitute
 misconduct, unethical behavior, or unprofessional conduct. The OIG closed the inquiry
 with an Investigative Memorandum to the file.

 Gross Mismanagement

 The OIG reviewed an allegation by a former contractor employee of gross
 mismanagement on the part of certain NCUA supervisors. We were unable to develop
 substantive information to warrant a full, formal investigation. Rather, the OIG found the
 allegations without merit. The matter was closed with an Investigative Memorandum to
 the file.

 Improper Promotion

 The OIG reviewed an allegation that an NCUA office did not adhere to Office of
 Personnel Management (OPM) regulations or NCUA policy in processing an accretion of
 duties promotion. The OIG’s review of the matter concluded that the evaluation
 conducted appropriately supported the promotion. However, the review also found that,
 with regard to recordkeeping practices, the subject office did not comply with OPM and
 agency guidance. The OIG issued a Management Implication Report (MIR) with
 corrective recommendations.

 Retaliation

 During the reporting period, the OIG reviewed an allegation from a credit union official
 that NCUA threatened to retaliate against him or the credit union. The OIG inquired into
 the matter, and found no basis to support the complainant’s allegation. Moreover, the
 OIG found that the NCUA Ombudsman was concurrently responding to the complainant



                                            18
OIG Semiannual Report                                          October 1, 2009 – March 31, 2010




 regarding identical issues. As a result, the OIG closed the matter in an Investigative
 Memorandum.

 Loan Fraud

 During a previous reporting period, the OIG received an allegation that a NCUA
 employee may have been party to a loan fraud at a credit union. The case is currently
 under investigation.

 Misuse of Official Time/Conflict of Interest

 During the previous reporting period, the OIG received an allegation that an employee
 was misusing official time and using his position for personal gain. This investigation is
 ongoing.




                                                19
 OIG Semiannual Report                                                 October 1, 2009 – March 31, 2010




                    LEGISLATIVE AND REGULATORY REVIEWS

   Section 4(a) of the Inspector General Act requires the Inspector General to review
   existing and proposed legislation and regulations relating to the programs and
   operations of the NCUA and to make recommendations concerning their impact.
   Moreover, we routinely review proposed agency instructions and other policy guidance,
   in order to make recommendations concerning economy and efficiency in the
   administration of NCUA programs and operations and the prevention and detection of
   fraud, waste and abuse.

   During the reporting period, the OIG reviewed 23 items, including proposed and final
   legislation and regulations, and Letters to Credit Unions. We issued formal comments
   on one legislative item.


                   SUMMARY OF STATUTES AND REGULATIONS REVIEWED
     Legislation                                             Title

H.R. 4173                “Wall Street Reform and Consumer Protection Act of 2009”
S. 2919                  “Small Business Lending Enhancement Act of 2009”
H.R. 3795                “Over-the-Counter Derivatives Market Act of 2009”


    Regulations/Rulings                                              Title

12 CFR Part 701                      Final rule: Secondary Capital Account
12 CFR 706                           Final rule: Unfair or Deceptive Acts or Practices; Withdrawal

12 CFR Part 701                      Final rule: Exception to the Maturity Limit on Second Mortgages
                                     Final rule: National Credit Union Share Insurance Premium and
12 CFR Part 741                      One Percent Deposit

12 CFR Part 716                      Final rule: Final Model Privacy Notice Form
                                     Final rule: Display of Official Sign; Temporary Increase in
                                     Standard Maximum Share Insurance Amount; Coverage for
                                     Mortgage Servicing Accounts; Share Insurance for
12 CFR Parts 740 and 745             Revocable Trust Accounts
                                     Proposed rule: Fiduciary Duties at Federal Credit Unions;
12 CFR Parts 701, 708a and 708b      Mergers and Conversions of Insured Credit Unions
                                     Proposed rule: Fixed Assets, Member Business Loans, and
12 CFR Parts 701, 723, and 742       Regulatory Flexibility Program



                                                  20
 OIG Semiannual Report                                                  October 1, 2009 – March 31, 2010




                                    Proposed rule: Extension of Comment Period on IRPS 09-01,
12 CFR Part 701                     Chartering and Field of Membership
                                   IRPS 09-01: Chartering and Field of Membership for Federal
12 CFR Part 701                    Credit Unions
12 CFR Parts 702, 703, 704, 709,
 and 747                           Proposed Rule: Corporate Credit Unions


Letters to Credit Unions                                        Title

10-CU-03 (3/2010)              Concentration Risk
                               Current Risks in Business Lending and Sound Risk Management
10-CU-02 (2/2010)              Practices
                               Supervising Low Income Credit Unions and Community Development
10-CU-01 (1/2010)              Credit Unions

10-FCU-01                      Operating Fee Schedule for FY 2010

09-CU-24 (12/2009)             Credit Union Financial Trends for the Third Quarter 2009

09-CU-23 (11/2009)             Reviewing Adequacy of Earnings

09-CU-22 (11/2009)             Community Development Revolving Loan Fund – Funding Round

09-CU-21 (10/2009)             Official NCUA Sign

09-CU-20 (10/2009)             Premium Assessments




                                                    21
OIG Semiannual Report                                            October 1, 2009 – March 31, 2010




                        TABLE I: INSPECTOR GENERAL ISSUED REPORTS
                                   WITH QUESTIONED COSTS
                                                Number of Questioned           Unsupported
                                                 Reports     Costs                Costs
         For which no management decision
   A.    had been made by the start of the
         reporting period.                              0            $0              $0

   B.    Which were issued during the
         reporting period.                              0             0               0
         Subtotals (A + B)                              0             0

   C.   For which management decision was
        made during the reporting period.               0             0               0


         (i) Dollar value of disallowed costs
                                                        0             0               0
        (ii) Dollar value of costs not allowed
                                                        0             0               0
         For which no management decision
   D.    has been made by the end of the
         reporting period.                              0             0               0
         Reports for which no management
   E.    decision was made within six months
         of issuance.                                   0             0               0

 Questioned costs are those costs the OIG has questioned because of alleged violations of laws,
 regulations, contracts, or other agreements; findings which at the time of the audit are not
 supported by adequate documentation; or the expenditure for the intended purpose is
 unnecessary or unreasonable.

 Unsupported costs (included in "Questioned Costs") are those costs the OIG has questioned
 because of the lack of adequate documentation at the time of the audit.




                                                 22
OIG Semiannual Report                                            October 1, 2009 – March 31, 2010




                   TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH
                  RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                           Number of                 Dollar
                                                            Reports                  Value

          For which no management decision had been
    A.
          made by the start of the reporting period.                    0              $0

    B.    Which were issued during the reporting period.                0               0

                            Subtotals (A + B)                           0               0

          For which management decision was made
    C.
          during the reporting period.                                  0               0

         (i) Dollar value of recommendations agreed to
            by management.                                             N/A            N/A

         (ii) Dollar value of recommendations not agreed
              to by management.                                        N/A            N/A

          For which no management decision was made
    D.
          by the end of the reporting period.                           0               0

          For which no management decision was made
    E.
          within six months of issuance.                                0               0

 Recommendations that "Funds to be Put to Better Use" are those OIG recommendations that
 funds could be used more efficiently if management took actions to reduce outlays, de-obligate
 funds from programs/operations, avoid unnecessary expenditures noted in pre-award reviews
 of contracts, or any other specifically identified savings.




                                                23
  OIG Semiannual Report                                        October 1, 2009 – March 31, 2010




                             TABLE III: SUMMARY OF OIG ACTIVITY
                          OCTOBER 1, 2009 THROUGH MARCH 31, 2010
                              PART I – AUDIT REPORTS ISSUED
 Report                                                                                  Date
 Number                                     Title                                       Issued

             Evaluation of the National Credit Union Administration’s Compliance
OIG-09-02    With the Federal Information Security Management Act (FISMA) 2009       10/16/2009


OIG-09-03    Material Loss Review of New London Security Credit Union                10/23/2009


OIG-10-01    Material Loss Review of High Desert Federal Credit Union                 3/17/2010
                    PART II – AUDITS IN PROGRESS (as of March 31, 2010)

             NCUA Financial Statement Audit 2008

             NCUA Financial Statement Audit 2009

             Material Loss Review of Cal State 9 FCU

             Material Loss Review of Center Valley FCU

             Material Loss Review of Eastern Financial Florida FCU

             Material Loss Review of ClearStar Financial Florida FCU

             Material Loss Review of Ensign FCU

             Material Loss Review of US Central Corporate CU
             Material Loss Review of Western Corporate FCU




                                              24
OIG Semiannual Report                                              October 1, 2009 – March 31, 2010




                               INDEX OF REPORTING REQUIREMENTS
 Section                                  Data Required                                Page Ref
 4(a)(2)    Review of legislation and regulations                                         20
 5(a)(1)    Significant problems, abuses, or deficiencies relating to the                 12
            administration of programs and operations disclosed during the
            reporting period.
  5(a)(3)   Recommendations with respect to significant problems, abuses or               12
            deficiencies.
  5(a)(3)   Significant recommendations described in previous semiannual                  16
            reports on which corrective action has not been completed.
  5(a)(4)   Summary of matters referred to prosecution authorities and                   None
            prosecutions which have resulted.
  5(a)(5)   Summary of each report to the Board detailing cases where access             None
            to all records was not provided or where information was refused.
  5(a)(6)   List of audit reports issued during the reporting period.                     24
  5(a)(7)   Summary of particularly significant reports.                                  12
  5(a)(8)   Statistical tables on audit reports with questioned costs.                    22
  5(a)(9)   Statistical tables on audit reports with recommendations that funds           23
            be put to better use.
 5(a)(10)   Summary of each audit report issued before the start of the reporting        None
            period for which no management decision has been made by the end
            of the reporting period.
 5(a)(11)   Description and explanation of reasons for any significant revised           None
            management decision made during the reporting period.
 5(a)(12)   Information concerning significant management decisions with which           None
            the Inspector General is in disagreement.




                                                25
